                       WHITE PAPER




Postal Service Retirement
Benefits Benchmarking
     May 1, 2014




                   Report Number HR-WP-14-002
                                                                  EXECUTIVE SUMMARY

                                                                                May 1, 2014
                                           Postal Service Retirement Benefits Benchmarking
                                                                Report Number HR-WP-14-002


The U.S. Postal Service continues to experience financial challenges and operated at
a $5 billion deficit in fiscal year (FY) 2013. The Postal Service remains a labor-
intensive organization; it incurred about $47 billion in compensation and benefits
expenses1 in FY 2013, including about $6 billion for retirement benefits. In its 2013
Annual Plan, the Postal Service said it needs to create a new retirement plan for future
employees as part of its efforts to gain control over personnel costs. At the request of
the Postal Service, we benchmarked its retirement benefits against six private and two
government sector programs.

In response to rising pension debt and difficulty in making promised pension
payments, private and some state and local governments have adjusted their
retirement benefit programs. However, federal employee retirement benefits have
generally remained unchanged since the Federal Employees Retirement System
(FERS) was enacted on January 1, 1987.

Federal law2 requires that all federal employees, including Postal Service employees,
be covered by one of two government-sponsored retirement plans: the Civil Service
Retirement System (CSRS)3 or FERS. Both are administered by the Office of
Personnel Management. Federal law4 also requires that compensation and benefits of
Postal Service employees be comparable to those of private sector employees.
However, unlike private sector companies, federal agencies, including the Postal
Service, do not have the authority to change retirement benefits for their employees.

The Civil Service Retirement Act of 1920 created CSRS for federal employees. It was
replaced by FERS for federal employees hired on or after December 31, 1983.5 CSRS
is a defined benefit,6 contributory retirement system that provides a basic annuity upon
retirement. CSRS employees may also receive credit for unused sick leave but do not
earn Social Security benefits. They may increase their retirement benefits by


1
  Compensation and benefits expenses consist of salaries and wages, future retirement benefits earned in current
periods, health benefits, plus miscellaneous other expenses incurred on behalf of current employees. All expenses
of the retirement programs, except for retiree health benefits, are included in compensation and benefits expenses.
2
  Title 39 U.S.C. § 1005(d)(1).
3
  This includes Dual CSRS, a subset of the CSRS plan. Employees with prior U.S. government service who were
rehired between January 1, 1984, and January 1, 1987, are covered by Dual CSRS, which consists of a basic
annuity and Social Security benefits.
4
  Title 39 U.S.C. § 1003(a).
5
  FERS was effective on January 1, 1987. However, federal employees hired between 1984 and 1986 were
automatically converted to FERS in 1987.
6
  A defined benefit plan promises a specified monthly benefit at retirement.

                                                         i
voluntarily contributing to a savings account or to the Thrift Savings Plan (TSP).7
There is no government contribution, but employee contributions are tax-deferred.

FERS provides benefits from three sources: a basic benefit plan similar to that under
CSRS, Social Security, and TSP. The TSP part of FERS is a defined contribution
plan.8 Employing agencies automatically establish a TSP account for each FERS
employee and contribute either 1 or 3 percent of salary to that account depending on
the employee’s hire date.9 FERS employees can also voluntarily contribute to their
TSP account and employing agencies match those contributions.10 The retirement
income from TSP depends on how much a participant and his or her employing
agency contribute to accounts during working years and the earnings accumulated
over that time.

Currently, of about 484,000 Postal Service career employees, about 50,000
participate in CSRS and about 434,000 participate in FERS.11 About half of the CSRS
participants contribute to TSP and about 80 percent of FERS participants contribute to
TSP. TSP contribution rates among Postal Service employees average between 4 and
4 1/2 percent of pay. Newly hired federal employees who already have tax-deferred
money in a traditional individual retirement arrangement12 or another eligible employer
plan can transfer those accounts into their TSP. Conversely, workers who leave the
federal government can transfer their TSP funds on a tax-deferred basis into another
tax-qualified retirement savings account.

Overall, pensions, which were originally intended to attract and retain talented
employees, are a major cost to organizations. As workers become more mobile and
transient throughout their careers, many organizations are adjusting their retirement
benefits programs to cater to an evolving workforce and putting the employee in
control of his or her financial future. These organizations are also freeing themselves
of long-term retirement costs by shifting the responsibility to the employee.

Although the Postal Service's retirement benefits are comparable in many ways to
those offered in the private sector, some differences exist. All eight benchmarked
organizations historically had defined benefit pension plans. However, seven
benchmarked organizations transitioned, at least partially, to a defined contribution
retirement benefits plan. The one remaining organization maintained a traditional



7
  CSRS employees may increase their annuity by contributing up to 10 percent of their pay to a voluntary
contribution account. The TSP is a retirement savings and investment plan established by Congress in the Federal
Employees’ Retirement System Act of 1986.
8
  A defined contribution plan is where the employee and/or the employer contribute to the employee's individual
account.
9
  CSRS participants must make a contribution to establish a TSP account. It is not automatic and employing
agencies do not contribute.
10
   FERS participants receive employing agency matching contributions on the first 5 percent of pay contributed.
The first 3 percent is matched dollar-for-dollar; the next 2 percent is matched 50 cents on the dollar.
11
   As of March 7, 2014. Career employees receive full employee benefits and privileges.
12
   A personal savings arrangement that allows employees to set aside money for retirement.

                                                       ii
defined benefit pension plan but increased the retirement age requirement, decreased
employee benefits, and offered a delayed compensation plan.13

Benefits constitute a larger share of compensation for federal workers, accounting for
39 percent of total compensation, compared with 30 percent in the private sector. As
such, benefits help attract and maintain staff in the federal workforce. The Postal
Service’s retirement expense was about 12 percent of total annual compensation and
benefits expenses in FYs 2011 through 2013. In the private sector, retirement and
savings benefits average 3.7 percent of total compensation and benefits costs. For
state and local governments, retirement and savings benefits average 9.4 percent.14

We identified common practices involving cost-savings, governance and
administration, union negotiation and relations, and employee satisfaction strategies.
The Postal Service should consider these practices, used by the organizations we
examined, if it changes its retirement benefits.




13
   This is an alternate retirement savings vehicle that allows employees to set aside additional pretax retirement
savings. While there is no match, upon retirement employees can access their individual contributions in addition to
their pension payments.
14
   U.S. Bureau of Labor Statistics Economic News Release, Employer Costs for Employee Compensation,
March 12, 2014.

                                                         iii
May 1, 2014

MEMORANDUM FOR:            JEFFREY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND
                            EXECUTIVE VICE PRESIDENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   White Paper ― Postal Service Retirement Benefits
                           Benchmarking (Report Number HR-WP-14-002)

Attached are the results of our benchmarking review of U.S. Postal Service Retirement
Benefits (Project Number 13YG030HR000). Retirement benefits are a significant
component of the Postal Service’s personnel costs. This white paper provides
benchmarking results with six private sector companies and two public sector
organizations and includes common practices used to implement benefit changes.

If you have any questions or need additional information, please contact Lorie Nelson,
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Postal Service Retirement Benefits Benchmarking                                                                   HR-WP-14-002



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Current Postal Service Retirement Benefits Program ..................................................... 2

Retirement Benefits Benchmarking Snapshot ................................................................. 4

Common Practices ........................................................................................................ 12

Conclusion .................................................................................................................... 13

Appendix A: Common Practices .................................................................................... 15

   Cost-Saving Program Strategy .................................................................................. 15

   Governance and Administration ................................................................................ 15

   Union Negotiations and Relations.............................................................................. 16

   Employee Satisfaction ............................................................................................... 16
Postal Service Retirement Benefits Benchmarking                               HR-WP-14-002



Introduction

The U.S. Postal Service continues to experience financial challenges and operated at a
$5 billion deficit in fiscal year (FY) 2013. This was the 7th consecutive year the Postal
Service netted a financial loss. The Postal Service remains a labor-intensive
organization; it incurred more than $47 billion in compensation and benefits expenses in
FY 2013, including about $6 billion for retirement benefits. In its 2013 Annual Plan, the
Postal Service said it needs to create a new retirement plan for future employees as
part of its efforts to gain control over personnel costs.

A retirement benefits program is conceptualized as an employee’s entitlement upon
retiring from an organization or company. It is part of an overall compensation and
benefits package that also can include leave and paid holidays, insurance, and
disability. Federal law15 requires all federal employees, including Postal Service
employees, to be covered by either the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS). The Postal Accountability and
Enhancement Act of 2006 also maintained the Postal Reorganization Act’s requirement
that postal employees receive compensation comparable to employees in the private
sector.16 However, unlike private sector companies, the Postal Service does not have
the authority to change retirement benefits for its employees.

CSRS was established in 1920 and covers employees hired before January 1, 1984.
Participants do not pay Social Security payroll taxes, and they do not earn Social
Security benefits. It is a defined benefit plan in which the government promises a
specified monthly pension. FERS was established on January 1, 1987, for all
employees hired since December 31, 1983. The program has three components: a
defined benefit or pension, a defined contribution plan in which the employer and
employee make regular contributions, and Social Security benefits. The Middle Class
Tax Relief and Job Creation Act of 201217 requires new employees hired on or after
January 1, 2013, to be covered under FERS as revised annuity employees (RAE).
These RAEs must pay 3.1 percent of their salary as FERS retirement contributions. This
is a 2.3 percent increase over what employees hired before January 1, 2013, must pay.
Additionally, the Bipartisan Budget Act of 2013 increased that contribution to 4.4 percent
for RAEs hired on or after January 1, 2014.

The Postal Service’s retirement expense was 12.3 percent of total compensation and
benefits expenses in FYs 2012 and 2013, and 12.2 percent in FY 2011. In the private
sector, retirement and savings benefits average 3.7 percent of total compensation and
benefits expenses. For state and local governments, retirement and savings benefits
average 9.4 percent.



15
   Title 39 U.S.C. § 1005(d)(1).
16
   Title 39 U.S.C. § 1003(a).
17
   Public Law 112-96 § 5001, February 22, 2012.
                                                  1
Postal Service Retirement Benefits Benchmarking                                                           HR-WP-14-002



Defined benefit plans, such as pensions, generally pay a guaranteed sum based on the
employee’s wages and years of service. In contrast, a 401(k) plan (as well as the 403(b)
plan)18 is a defined contribution plan, which means the money the employee receives in
retirement is based on the money the employee (and the employer, if there is a match
available) contributed to the plan. The 401(k) plans give employees automatic
deductions from paychecks, pretax incentives, matching programs, and control over
their own investments.

Private company and public sector retirement plans have undergone significant
changes over the past 20 to 30 years. Pension plans used to be the most common form
of retirement program in the U.S., but recently 401(k) plans have become more popular.
Benchmarked organizations are phasing out costly pension programs and implementing
401(k) matching programs that place the employee in control of his or her financial
future and shift the responsibility of retirement from the organization to the employee.
According to the postmaster general, it is urgent that the Postal Service implement
strategies now to improve its position presently and in the future. Additionally, he stated
a defined contribution retirement system for future employees would help ensure the
Postal Service can fulfill its obligations not only to future employees but to retirees and
current employees as well.

Current Postal Service Retirement Benefits Program

The Civil Service Retirement Act of 1920 established CSRS for certain federal
employees. It was replaced by FERS for federal employees hired on or after
December 31, 1983. CSRS is a defined benefit, contributory retirement system.
Employees contribute between 7 and 8 percent of their pay to the CSRS and the
employing agency matches that contribution. It provides a basic annuity upon retirement
based on length of service and a percentage of an average of the highest average basic
pay19 earned during any 3 consecutive years of service. Employees also receive credit
for any unused sick leave if they retire on an immediate annuity.20 Employees covered
by CSRS do not pay Social Security payroll taxes and they do not earn Social Security
benefits. They may increase their earned annuity by contributing up to 10 percent of
basic pay to a voluntary contribution account or to the Thrift Savings Plan (TSP).21
There is no government contribution but employee contributions are tax-deferred.

FERS provides benefits from three sources: a basic benefit plan, Social Security
benefits, and TSP. The basic annuity is calculated based on length of service and a
percentage of an average of the highest basic pay earned during any 3 consecutive


18
   A 401(k) plan is a tax-qualified, defined-contribution pension account defined in subsection 401(k) of the Internal
Revenue Code. A 403(b) plan is similar to a 401(k) plan but is available for public education organizations, some
nonprofit employers, cooperative hospital service organizations, and self-employed ministers.
19
   Basic salary earned for that position. It includes increases in salary for which retirement deductions are withheld. It
does not include payments for overtime or bonuses.
20
   An immediate retirement benefit is one that starts within 30 days of the date an employee stops working.
21
   The TSP is a retirement savings and investment plan established by Congress in the Federal Employees’
Retirement System Act of 1986.

                                                            2
Postal Service Retirement Benefits Benchmarking                                                          HR-WP-14-002



years of service.22 Employees contribute 0.8 percent of their salary towards their FERS
pension. The Middle Class Tax Relief and Job Creation Act of 2012 requires new
employees hired on or after January 1, 2013, to be covered under FERS as RAEs.
These new employees must pay 3.1 percent of their salary as FERS retirement
contributions. This is an increase of 2.3 percent over what employees hired before
January 1, 2013, had to pay. Additionally, the Bipartisan Budget Act of 2013 increased
that contribution to 4.4 percent for new employees hired on or after January 1, 2014.

The TSP is a defined contribution plan. The retirement income from TSP will depend on
how much an employee and employing agency contribute to an employee’s account
during his or her working years and the earnings accumulated over that time. Even if
employees do not contribute to a TSP account, employing agencies automatically
contribute 1 percent of basic pay for every FERS employee hired before
August 1, 2010. For FERS employees hired on or after that date, the employing agency
automatically contributes 3 percent. Employees can also voluntarily contribute additional
amounts from their basic pay until they reach the Internal Revenue Code contribution
limit,23 and employing agencies match the first 5 percent of those contributions.24 If
employees stop contributing, the agency matching contributions will also stop, but the
agency's automatic contributions will continue.

Newly hired federal employees who already have tax-deferred money in a traditional
individual retirement account or another eligible employer plan can transfer those
accounts into their TSP. Conversely, workers who leave the federal government can
transfer their TSP funds on a tax-deferred basis into another tax-qualified retirement
savings account. Postal Service employee contribution rates to the TSP program
average between 4 and 4 1/2 percent of pay.

To ensure the Postal Service can guarantee defined benefits under the FERS program,
the Office of Personnel Management (OPM) requires the Postal Service to fund the cost
through:

    Total Normal Cost. This is the cost of projected retirement benefits allocated to the
     current year. The OPM determines this cost, which is offset by employee
     contributions to the plan.25


22
   One percent of high-3 average salary for each year of service for employees under age 62 at retirement; or age
62 or older at retirement with less than 20 years of service. The benefit increases to 1.1 percent at age 62 or older at
retirement with 20 or more years of service. Special provisions also apply for air traffic controllers, firefighters, law
enforcement officers, capitol police, and nuclear materials couriers.
23
   $17,500 for calendar year 2014. Amounts may be deducted before taxes are withheld (traditional contributions) or
after taxes have been withheld (Roth contributions).
24
   The first 3 percent is matched dollar-for-dollar by the employing agency. The next 2 percent is matched at 50 cents
on the dollar. This means that when employees contribute 5 percent of basic pay, the employing agency contributes
another 4 percent of basic pay to the TSP account. Together with the agency's automatic contribution (1 percent), the
employing agency puts in a total of 5 percent. Employing agencies only match the first 5 percent of employee
contributions.
25
   Employees hired before January 1, 2013, must pay .8 percent of their salary as FERS retirement contributions.
New employees hired on or after January 1, 2013, must pay 3.1 percent and employees hired on or after
January 1, 2014, must pay 4.4 percent.

                                                            3
Postal Service Retirement Benefits Benchmarking                                                       HR-WP-14-002



    Additional payment if OPM determines that FERS plan liabilities exceed assets.26

Ideally, all benefits are funded through the total normal cost. However, when interest
rates decline as they have over the past several years, the overall value of the FERS
plan declines, and those guaranteed benefits become unfunded. As such, to ensure
defined benefits, the OPM increases the total normal cost so the Postal Service’s
overall funding cost increases.

Retirement Benefits Benchmarking Snapshot

We benchmarked with eight organizations across the education, communications,
parcel, postal, energy, and insurance industries as well as the government sector.
Two of the eight organizations have unionized workforces and all of the private
companies operate nationwide. We focused on how the organizations structure their
retirement benefits, changes made to those benefits, and the corresponding reasons for
those changes. All eight organizations historically had traditional pension plans.
However, seven of them transitioned, at least partially, to a 401(k) or 403(b) defined
contribution retirement benefits plan. The state organization maintained a
traditional pension plan, but it increased the retirement age requirement, decreased
the percentage of employee benefits, and offered a delayed compensation plan. See
Table 1 for a snapshot of retirement benefits for the private and government sector
benchmarked organizations.

Also, the Dutch government established a defined-ambition program, which keeps the
idea of an employer promise but loosens the bonds of that promise.27 Employers try to
pay a specific pension, but unlike defined benefit pension programs, defined-ambition
programs permit the employer to lower the pensions if it is unable to deliver on its
promise. It is a soft promise that aligns the focus of the company and the employee on
achieving an adequate pension.




26
   Since 1985, FERS plan assets have exceeded liabilities so this portion of the funding requirement does not
currently apply.
27
   None of the benchmarked companies transitioned to a defined-ambition program.

                                                          4
Postal Service Retirement Benefits Benchmarking                                     HR-WP-14-002



Table 1. Benchmarked Organizations’ Retirement Benefits Program Comparison

                          Previous             Current
                         Retirement          Retirement
  Benchmarked             Benefits            Benefits
   Organization           Program             Program            Challenges          Results
Company A               Pension            403(b) defined      Stringent         Avoid risky
(Private)               defined            contribution        regulations;      pension
                        benefit            program             binding           liabilities in
Academic and            program                                pension           unstable
research                                                       payments          economy
institution
Company B               Pension            401(k) defined      Defined benefit   Cut long-
(Private)               defined            contribution        pension plan      term, binding
                        benefit            program             commitment        pension
Communications          program                                exceeded          liabilities and
                                                               assets            save more
                                                                                 than $3 billion
                                                                                 between 2006
                                                                                 and 2016
Company C               Pension            401(k) defined      Mounting          Established
(Private)               defined            contribution        pension debt      portable
                        benefit            program             and future        account
Package delivery,       program            (nonunionized       payment           formula so
union and                                  employees);         obligations       employees
nonunion                                   pension defined                       can maintain
workforce                                  benefit                               retirement
                                           (unionized                            savings while
                                           employees)                            moving
                                                                                 between jobs
Company D               Pension            Same; adjusted      Mounting          Projected to
(State)                 defined            retirement and      pension debt      save $5
                        benefit            time-at-            and fraud         billion over
                        program in         organization                          30 years
                        place of           requirements;
                        Social             offered delayed
                        Security           compensation
                                           plan
Company E               Pension            Hybrid pension      High pension      Offer
(City)                  defined            defined benefit     costs in          employees
                        benefit            and 401(k)          unstable          multiple
                        program            defined             economy           options to
                                           contribution plan                     save while
                                           (in process)                          limiting
                                                                                 burdensome
                                                                                 pension costs


                                                  5
Postal Service Retirement Benefits Benchmarking                                            HR-WP-14-002



                              Previous               Current
                             Retirement            Retirement
  Benchmarked                 Benefits              Benefits
   Organization               Program               Program            Challenges            Results
Company F                   Pension              401(k) defined     Unmanageable         Share
(Private postal)            defined              contribution       pension              retirement
                            benefit              program            liabilities due to   savings
Physical and                program                                 weak economy         responsibility;
electronic                                                          and extended         allow
delivery,                                                           average              employees to
unionized                                                           retirement           earn
workforce                                                           period               retirement
                                                                                         savings while
                                                                                         moving
                                                                                         between jobs
Company G                   Pension              401(k) defined    Difficult to          Eliminate
(Private)                   defined              contribution      maintain long-        long-term,
                            benefit              program           term, binding         binding
Energy                      program                                pension               pension
                                                                   liabilities due to    liabilities
                                                                   unstable
                                                                   economy and
                                                                   volatile interest
                                                                   rates
Company H                   Pension              Hybrid pension    Difficult to          Decreased
(Private)                   defined              defined benefit   guarantee             long-term
                            benefit              and 401(k)        promised              pension
Insurance                   program              defined           pension               liabilities;
                                                 contribution plan benefits due to       more savings
                                                                   unstable              responsibility
                                                                   economy and           on employee;
                                                                   unpredictable         less risk;
                                                                   interest rates        more
                                                                                         employee
                                                                                         freedom and
                                                                                         flexibility
Source: Contractor’s retirement benefits comparative analysis.

Company A

Company A is one of the world’s leading academic and research institutions. Before
2008, Company A offered a traditional pension plan. As shown in Table 2, employees
started with a cash balance of zero and automatically received a savings payment
towards their pension based on age plus years of service.




                                                         6
Postal Service Retirement Benefits Benchmarking                                    HR-WP-14-002



                    Table 2. Benefit Credit Based on Age and Service

                                     Age Plus
                                      Service    Benefit Credit
                                            0-39          3.5%
                                           40-49          4.0%
                                           50-59          4.5%
                                           60-69          6.0%
                                           70-74          8.0%
                                           75-79          9.0%
                                             80+         10.0%
                                  Source: Company A, Office of Faculty and
                                  Staff Benefits.

In addition to the automatic employer contribution, employees also received an annual
interest credit that varied based on the market’s health. However, the rules and
regulations in the Pension Benefit Act of 2008 made it difficult for Company A to control
its pension program and challenged its ability to guarantee long-term, binding pension
payments in a volatile, unpredictable economy. As a result, Company A transitioned to a
403(b) plan for all employees hired after January 1, 2009. As shown in Table 3,
Company A now automatically contributes 5 percent of employee gross pay, regardless
of whether employees contribute. Company A also contributes an additional 5 percent
when the employee contributes 3 percent of his or her salary.

                 Table 3. Sample Employee and Employer Contribution

                Personal     Automatic                     Additional
                Employee     Employer                      Employer
                 403(b)       403(b)                        403(b)      Total 403(b)
               Contribution Contribution                  Contribution Contributions
                         0%          5%                             0%            5%
                         1%          5%                          1.67%         7.67%
                         2%          5%                          3.34%        10.34%
                         3%          5%                             5%           13%
              Source: Contractor’s retirement benefits comparative analysis.

This transition placed more of the cost and responsibilities on the employee. It also
enabled Company A to support its workforce through a comprehensive 403(b) plan
while avoiding additional long-term, risky pension liabilities in an unstable economy.

Company B

Company B is a global leader in innovative communications and technology solutions
and has a unionized workforce. Before 2006, Company B offered a traditional pension
plan in which all employees received pension payments based on their age and years of
service. In 2006, the company froze all pension payments and transitioned to a 401(k)
plan. Employees continue to receive the pension benefits they have earned throughout

                                                      7
Postal Service Retirement Benefits Benchmarking                                                      HR-WP-14-002



their career but do not accumulate additional savings moving forward. Under the new
plan, Company B matches 100 percent of employee contributions up to 6 percent of
their salary. Even with the freeze, by the end of 2010, Company B’s defined-benefit
pension plan had $27 billion in commitments yet only $18 billion in assets. Also, due in
part to higher post-retirement costs, Company B experienced $16 billion in pension-
related charges from 2010 to 2013. Still, Company B expects its decision to freeze all
pension payments will save more than $3 billion between 2006 and 2016.

Company C

Company C is the world's largest package delivery company and a leading global
provider of specialized transportation and logistics services. It has both unionized and
nonunionized employees. Before 2008, Company C offered a traditional pension plan
for all employees. However, as shown in Table 4, Company C transitioned its
nonunionized workforce hired on or after January 1, 2008, to a 401(k) plan to reduce
mounting pension debt and future payment obligations.

         Table 4. Unionized and Nonunionized Employees Retirement Benefits

                                                                                       Pension
                                         Date Hired              401(k) Plan            Plan
          Unionized
          Employees
                                      Before
                                      January 1, 2008
                                                                                          
                                      On or After
                                      January 1, 2008
                                                                                          
          Nonunionized
          Employees
                                      Before
                                      January 1, 2008
                                                                                          
                                      On or After
                                      January 1, 2008                                    
          Source: Contractor’s retirement benefits comparative analysis.

Although Company C maintained its pension plan for unionized employees, it extended
its “time at the organization” requirement from 25 to 30 years.28 It also established a
portable account formula to appeal to a more mobile, transient workforce. Specifically,
Company C shortened the vesting period required for unionized employees to start
receiving pension funds upon retirement. After 3 years, unionized employees are
entitled to a certain percentage of pension funds so they can remain flexible and mobile
while still saving money for retirement. While negotiations continue, the union prefers a
pension plan as it guarantees retirees an established steady, reliable source of income
upon retirement. However, under the new 401(k) retirement match plan, nonunionized

28
  Company C required its employees to work at the organization for at least 25 years before they could retire and
begin to receive full, unpenalized pension benefits.

                                                         8
Postal Service Retirement Benefits Benchmarking                                      HR-WP-14-002



employees have access to “free money” and the ability to increase their pretax
retirement contributions. More specifically, nonunionized employees are able to
contribute an unlimited percentage of their income towards retirement savings and
Company C will match 100 percent of their contributions up to 3.5 percent. Union
members, on the other hand, are limited to the set pension rate and are unable to add
pretaxed contributions towards their retirement savings. Moving forward, Company C
plans to persuade all employees that the 401(k) is the best retirement benefits program
for the organization to free itself of long-term costly payments.

Company D

Company D, a state government, uses a traditional pension plan in place of Social
Security benefits. As shown in Table 5, employees automatically contribute a
percentage of their income towards the state retirement system based on their hire
date.

            Table 5. Retirement Benefit Contribution Based on Date Hired

                                                                  Employee
                                                                 Retirement
                                                                    Benefit
                           Date Hired                          Contribution Rate
                Before January 1, 1975                                       5%
                January 1, 1975,
                through December 31, 1983                                       7%
                January 1, 1984, through
                June 30, 1996                                                   8%
                July 1, 1996, to the Present                                    9%
               Source: Contractor’s retirement benefits comparative analysis.

Upon retirement, employees receive payments from a pension account based on age,
years of service, average of the 3 highest consecutive years’ salaries, and group
classification.

To modernize its pension plan and limit associated costs, Company D maintained the
traditional pension plan structure but increased the retirement age from 60 to 67 and
increased years of service requirements. Finally, it established a no-spiking rule to
limit annual salary increases that count towards a pension to no more than 7 percent
of the average earnings over the last 2 years plus inflation. Company D hopes to save
$5 billion over the next 30 years with this pension plan.

In addition to the pension program, Company D also offers its employees a delayed
compensation plan to provide an alternative retirement savings vehicle and encourage
state employees to fully plan and prepare for retirement. The state allows employees to
set aside additional pretax retirement savings. While there is no match, upon retirement



                                                      9
Postal Service Retirement Benefits Benchmarking                                           HR-WP-14-002



employees can access their individual contributions in addition to their pension
payments.

Company E

Company E, an independent city, offered a traditional pension plan to its employees.
However, over the past 5 years, Company E has been transitioning to a hybrid pension
and 401(k) plan to parallel its state’s retirement benefits. As shown in Table 6,
employees hired before December 31, 2009, are part of a pension program based on
an employee’s age, years of credible service, and an average of the last 36 consecutive
months of compensation. Employees hired between January 1, 2010, and
December 31, 2013, are part of a plan very similar to the previous one but the
qualifications for full retirement benefits increased from age 65 with 5 years of credible
service (or age 50 with at least 30 years of service) to age and years of service that
equal 90. Employees hired after January 1, 2014, are part of a hybrid pension and
401(k) plan.

                     Table 6. Key Facts on City/State Retirement System

                             Retirement System Retirement System                 Retirement System
                                       1                 2                                 3
Eligible members             Hired before      Hired between                     Hired January 1,
                             December 31, 2009 January 1, 2010,                  2014, or after
                                               and
                                               December 31, 2013
Retirement                   5 percent         5 percent                         Combination of
contribution                                                                     mandatory and
                                                                                 voluntary employer
                                                                                 and employee
                                                                                 contributions
Type of plan                 Pension program      Similar to retirement          Hybrid pension
                             based on age, years system 1                        defined benefit and
                             of credible service,                                401(k) defined
                             and salary                                          contribution plan (in
                                                                                 process)
Retirement age               65                               Social Security    Social Security
                                                              retirement age     retirement age
Earliest unreduced           Age 65 with at least             When employee’s    When employee’s
retirement eligibility       5 years of credible              age and credible   age and credible
                             service                          service equal 90   service equal 90
Source: Contractor’s retirement benefits comparative analysis.

According to company officials, the hybrid retirement plan combines the features of a
defined-benefit plan, which pays a monthly retirement benefit, and a defined
contribution plan, which provides a retirement benefit based on contributions to the plan
and the investment performance of those contributions. Through a hybrid retirement


                                                         10
Postal Service Retirement Benefits Benchmarking                                 HR-WP-14-002



benefits program, Company E can offer its employees multiple options to save for
retirement while limiting burdensome pension costs. Specifically, Company E combined
both retirement programs to create a more sustainable program for both the employee
and employer. With a hybrid retirement plan, Company E decreased the pension
payments and limited its debt while still providing its employees guaranteed payments
upon retirement and allowing them to set aside additional funds as retirement savings
before being taxed.

Company F

Company F is a world leader in providing innovative physical and electronic delivery
solutions and has a unionized workforce. It offers a traditional pension plan to its entire
workforce. Employees are eligible to receive unreduced benefits as soon as they reach
the age of 55 and have more than 30 years of credible service at the organization.
However, Company F has accumulated unmanageable pension liabilities because of a
weak economy and an extended average retirement period. By the middle of 2014,
Company F will have more than $1 billion in pension payment obligations to its retired
workforce. As a result, Company F is undergoing a major retirement benefits transition
to limit costs associated with its pension program. Although the union is predominantly
in favor of the traditional pension plan, Company F plans to offer a 401(k) plan to all
employees hired after a certain date. The 401(k) plan is intended to share the burdens
of a retirement benefits plan with the employee through a comprehensive 401(k)
matching plan.

Company G

Company G is one of the nation's largest producers and transporters of energy. Before
2008, Company G offered a traditional pension plan to attract and retain talented
employees within the organization. However, the company found the plan difficult to
maintain because of an unstable economy and volatile interest rates. As a result,
Company G transitioned to a 401(k) plan for all employees hired after 2008. Employees
that remain enrolled in the traditional pension plan may also participate in the 401(k)
program but have a much smaller match component than those enrolled in the newer
401(k) plan.

By using a 401(k) match plan rather than a pension plan, Company G can still
contribute to employees’ retirement while eliminating long-term, binding pension
liabilities.

Company H

Company H is the number one provider of guaranteed-renewable insurance in the U.S.
Before 2008, Company H offered a traditional pension plan to its employees. However,
Company H faced mounting debt as its pension liabilities grew out of control. In an
unstable economy with unpredictable interest rates, Company H found it difficult to
guarantee retirees the pension benefits they were promised. Company H


                                                  11
Postal Service Retirement Benefits Benchmarking                                               HR-WP-14-002



recently restructured its retirement benefits program and now offers a combination
of a pension and a 401(k) retirement plan. It decreased pension benefits and
introduced a comprehensive 401(k) matching program. Employees hired after 2008
receive a 50-percent employer match of all personal 401(k) contributions up to
6 percent of their salary and receive unreduced pension payments as soon as their
years of credible service and age add up to 80. By offering a hybrid retirement plan,
Company H decreased the amount of long-term pension liabilities and put more
retirement savings responsibilities on the employees. Further, the organization faces
less risk while the employee has more freedom and flexibility to contribute to his or her
own retirement savings.

Common Practices

We identified a set of common practices recognized by benchmarked companies and
organizations when considering retirement benefits plans. As shown in Figure 1, these
practices involve strategies in four areas:

            Figure 1. Retirement Benefits Program Core Component Areas



                                   A.
                              A. COST SAVINGS
                                                                           B.
                        COST SAVINGS                                GOVERNANCE
                      What programs or reforms                     How do organizations
                      have organizations adopted                   govern new program
                      to reduce mounting pension                 polices or monitor reform?
                       commitments and rising
                                    debt?

                                                    RETIREMENT
                                                    PROGRAMS

                                  D.                                      C.
                          EMPLOYEE
                                                                            .
                                                                         UNION
                         SATISFACTION                              NEGOTIATION
                               How do                             How are unions managed
                         organizations balance                     and integrated into the
                         employee satisfaction                      negotiation process?
                        while reducing benefits?




                   Source: Contractor’s analysis.

The Postal Service should consider these practices if it pursues any changes to its
retirement benefits programs. See Appendix A for additional details on these common
practices.




                                                     12
Postal Service Retirement Benefits Benchmarking                                HR-WP-14-002



Conclusion

Pensions, which were originally intended to attract and retain talented employees, are a
major cost to organizations and may be less important as workers become more mobile
and transient throughout their careers. Pension payments are becoming larger as the
retirement window continues to grow with increasing life expectancy. In a volatile
economy, many organizations are unable to meet their promised pension payments as
they struggle to maintain an adequate rate of return on their assets. However, many
unions and employees still demand a pension plan. Many organizations are adjusting
their retirement benefits programs to cater to an evolving workforce while alleviating
long-term retirement costs. Figure 2 shows the risks associated with each retirement
benefits program.

                         Figure 2. Risk Profile of Pension Systems




                        Source: Contractor’s analysis.

Many organizations are transitioning towards a 401(k) plan and matching a certain
percentage of employee 401(k) contributions to collaboratively invest towards an
employee’s retirement. Further, organizations have created hybrid retirement benefits
programs when a full transition to a 401(k) plan is not feasible. Hybrid plans offer both a
pension and 401(k) plan. The Dutch government also established a defined-ambition
program which keeps the idea of an employer promise but loosens the bonds of that
promise. Employers try to pay a specific pension, but unlike defined benefit pension
programs, defined-ambition programs permit the employer to lower the pensions if it is


                                                     13
Postal Service Retirement Benefits Benchmarking                                                           HR-WP-14-002



unable to deliver on its promise. It is a soft promise that aligns the focus of the company
and the employee on achieving an adequate pension.29 Organizations that maintained
their traditional pension programs often reduced the benefits or adjusted the minimum
age an employee can retire and receive retirement benefits without penalty.
Benchmarked companies reported savings from about $1 billion to about $5 billion,
including one private sector company that projected savings of about $3 billion over
10 years and one that projected savings of $5 billion over 30 years.




29
     We did not identify any organizations in the U.S. that adopted a defined-ambition pension program.

                                                           14
Postal Service Retirement Benefits Benchmarking                                                          HR-WP-14-002




                                      Appendix A: Common Practices

Cost-Saving Program Strategy

A cost-saving program strategy looks at the fiscal aspect of retirement benefits plans.
Successful cost-saving program strategies consider the most realistic, economically
sustainable program for the employer as well as overall employee satisfaction. Common
practices include:

      Maintaining pension plan structure to satisfy union preferences but introducing
       reforms to reduce pension liabilities and debt, including:

       o Increasing the retirement age eligibility requirement to account for longer life
         expectancy.

       o Increasing the time at the organization eligibility requirement to reduce pension
         payments.

       o Transitioning away from “Rule of 85”30 to leverage experienced employees for a
         longer period.

      Transitioning towards a 401(k) retirement benefits plan to avoid high-risk pension
       plans.

      Freezing pension plans while transitioning to a 401(k) benefits program to prevent
       increasing debt.

      Introducing 401(k) matching programs to relieve organizations from costly pension
       plans.

      Creating a hybrid plan to leverage best practices from pensions and 401(k)
       retirement plans.

Governance and Administration

The right leadership and administrative personnel, both in-house and third party, are
critical to proper oversight, development, or reform of a retirement benefits program to
ensure it meets the needs of the employer and the employee. Common practices
include:

      Hiring finance and accounting subject matter experts to oversee internal operations
       and coordinate with third-party vendors.



30
     An employee receives his or her full pension benefits once years of service and age add up to 85.

                                                           15
Postal Service Retirement Benefits Benchmarking                                  HR-WP-14-002



   Partnering with third-party vendors to manage investments, risks, and regulatory
    requirements associated with retirement benefits programs.

   Using a data management system to ensure payroll compliance and limit fraud (for
    example, making sure the right person receives the pension payment, and that
    pension payments do not continue after the recipient has passed away).

   Creating a web portal to increase employees’ access and visibility to their retirement
    benefits program.

   Transitioning away from pension plans to defined contribution plans to avoid large
    costs and administrative burdens associated with the Pension Protection Act.

   Establishing a dedicated office to support employee inquiries and concerns.

Union Negotiations and Relations

A healthy, collaborative relationship between the organization and its unions is pivotal to
ensuring a productive, efficient reform process that results in a retirement benefits
program that is ideal for the employer and the employee. Organizations should be
transparent and consider union stance during all stages. Common practices include:

   Maintaining an open dialogue between management teams and unions on pension
    reform to ensure healthy collaboration.

   Establishing a joint committee of union and organization leaders to facilitate
    diplomatic negotiations.

   Openly communicating pension difficulties and cost burdens with unions to
    encourage negotiation and collaboration.

   Balancing relationships with multiple unions to satisfy retirement benefits for all
    parties involved.

   Offering attractive 401(k) matching plans for nonunionized employees to persuade
    unions to move away from a traditional pension plan.

Employee Satisfaction

Employers must customize a retirement benefits program that satisfies the employees
who are ultimately going to receive retirement benefits. Common practices include:

   Offering a portable retirement benefits account to appeal to a younger and more
    mobile workforce.




                                                  16
Postal Service Retirement Benefits Benchmarking                                HR-WP-14-002



   Implementing cost-of-living adjustments for all retirees to account for an increasing
    consumer price index.

   Creating a 401(k) matching scale that attracts, retains, and rewards employees
    based on tenure or performance.

   Establishing alternative ways for employees to invest personal savings towards
    retirement outside of traditional pension plans.




                                                  17
